nation‟s capital to local stations. They said this enabled stations to remain competitive
in their local markets and achieve something greater than what they could on their own.
Pundit‟s written response to the draft report is attached in Exhibit F. We did not include
the five appendices attached to Pundit‟s response which contains 39 pages of
documents supporting their response. This additional information is available upon
request from our office.

This report presents the conclusions of the Office of Inspector General (OIG). The
findings and recommendations contained in this report do not represent CPB
management‟s final position on these matters. CPB management will make final
management decisions on the recommendations in this report in accordance with
CPB‟s audit resolution procedures. Based on Pundit‟s response to the draft report, we
consider recommendations 1-3 unresolved.

We performed our examination in accordance with Government Auditing Standards for
attestation engagements. Our scope and methodology is discussed in Exhibit E and
includes scope limitation disclosures related to auditing grant agreement compliance.


                                       BACKGROUND

Pundit was initially funded by CPB in June 2003 to provide localized news coverage of
Congress for public radio stations. Pundit changed its name to Capitol News
Connection (CNC) in December 2004. CNC produces stories and allows public radio
stations to subscribe to different packages that allow stations to either broadcast their
entire story or only a portion of it. Since its inception Pundit has received $2,304,218
from CPB to deliver its programming.

The “Capitol News Connection Transition Project,” CPB Account No. 13978 was
executed on April 6, 2011 to continue producing CNC reports from Capitol Hill and
distribute content daily to its client stations, while strengthening its ability to provide
services by:

       i.   developing and implementing a new business plan that will outline strategies
            needed to achieve long-term sustainability;
     ii.    developing a new pricing model for stations that will fully accommodate
            grantee‟s costs for content customization for the stations;
     iii.   digitizing grantee‟s content distribution to increase its accessibility and
            efficiency and providing instructions to stations on the use of the new
            distribution platform; and
    iv.     marketing grantee‟s services to stations and making on-site station visits, to
            sustain carriage on at least 25 stations.

CPB funded $300,000 of the $688,036 budget (43.6 percent). The grant period was
from March 1, 2011 through August 31, 2011. During this audit period CPB paid
$270,000 against this grant as itemized in Exhibit A, with a $30,000 balance pending at

                                               2
grant closure on August 31, 2011. A revised Final Financial Report was submitted to
CPB on January 22, 2012 reporting total revenues of $671,513 and total expenditures
of $686,924, as presented in Exhibit B.


                                RESULTS OF REVIEW

We examined Pundit management‟s assertion of compliance with CPB‟s grant
spending and financial reporting requirements under CPB Account No. 13978 for the
six-month period ending August 31, 2011. Management is responsible for compliance
with those requirements. Our responsibility is to express an opinion on management‟s
assertions about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and, accordingly, included examining, on a test
basis, evidence about Pundit‟s compliance with grant requirements and performing
such other procedures as we considered necessary in the circumstances. We believe
that our examination provides a reasonable basis for our opinion. Our examination
does not provide a legal determination on Pundit‟s compliance with specified
requirements.

Our examination found the following issues of noncompliance with grant spending and
documentation requirements:

      unallowable questioned costs of $71,525;
      questioned costs of $6,878 for exceeding cost category budgetary line item
       limits; and
      questioned costs of $2,610 for lack of adequate documentation.

CPB‟s proportionate share of the total questioned costs of $81,013 was $35,322.

Additionally, we found that Pundit reported in-kind professional services of $40,500 that
were not authorized in the approved budget and over-stated reported revenues by
$8,250.

In our opinion, because of the effect of the material noncompliance described above,
Pundit has not complied with CPB grant spending requirements for the six-month
period ending August 31, 2011.




                                            3
                             FINDINGS AND RECOMMENDATIONS

Questioned Costs

Our examination found questionable grant expenditures of $81,013. These items
included unallowable costs of $71,525, costs in excess of budgeted limits of $6,878,
and inadequately documented costs of $2,610. CPB‟s portion of these questionable
expenditures totaled $35,322. 1

        Unallowable Costs

Our examination identified $71,525 in unallowable costs. This total included $40,841 in
depreciation or amortization expenses, $28,514 in costs incurred outside the grant
period term, and $2,170 in costs not directly related to programming. These items are
detailed in Exhibit D. The majority of these costs were claimed in support of the
overhead charges.

CPB‟s Grant Agreement (CPB Account No. 13978) Article 4. Term specifies that costs
may be incurred pursuant to the Detailed Budget from March 1, 2011 t hrough August
31, 2011. Further, CPB‟s Terms and Conditions for Television, Radio and Other Media
Production Grants, Section 4.F. Authorized Uses of CPB Funds states that, “No
Grantee may apply amounts received under a Grant to any purpose other than actual
costs incurred in performance of the Grant Project in accordance with its Budget.”

        Amortization and Depreciation

Our review of the amortization and depr eciation charges used to support Overhead
claims of $40,841 found that the web development and computer equipment being
amortized or depreciated were reported as direct grant expenses on previous CPB
grants. These included $35,508 in amortized web development costs and $5,333 in
depreciated computer equipment.

Our review of the Web Amortization schedule identified items purchased in 2010 that
were previously reported to CPB as direct Web Developments costs at their purchase
price ($81,082) under the CPB grant “Capitol News Connection 2010” (CPB Account
Number 13359) for the period March 1, 2010 – February 28, 2011. A total of $18,249
was amortized for these items under the grant we audited. The balance of the
amortized items totaling $17,259 was for items purchased prior to 2010.

Similar to the Web Amortization costs, our review of Facility Depreciation identified the
purchase of computer and broadcasting equipment in 2010 that was reported to CPB
as direct Office Expenses or Broadcast & Web Equipment at their purchase price
($10,158) under CPB grant (Account Number 13359). A total of $2,347 was reported


1
 CPB‟s grant ter ms agreed to fund 43.6 percent of the grant expenditures based on budgeted revenues ($300,000
CPB revenues/$688,036 total revenues).

                                                       4
as depreciation for these items under the grant we audited. The balance of the
depreciated items claimed totaling $2,986 was for other items purchased prior to 2010.

Claiming amortization and depreciation for items previously reported as direct c osts is a
duplicate reporting of expenditures. As a result, we have questioned all amortized Web
Development costs of $35,508 and all Facility Depreciation of $5,333 for total
questioned costs of $40,841.

Pundit officials disputed that the capitalized equipment in question was ever reported
as direct costs under a prior CPB grant and said that CPB funds were not used to pay
for any of this equipment. They went on to say that Pundit and CNC received grants
and unrestricted income from many sources over the years to fund equipment and
website development. Further, CPB refused to fund any capitalized equipment
purchases for Pundit as of 2005. They said that depreciation and amortization is a
legitimate and CPB-approved overhead charge. They said their depreciation schedule
was set by its auditors and included in Pundit‟s tax returns.

While Pundit claims it did not report capitalized equipment as direct expenses under
prior grants, our reconciliation of the FY 2010 Final Financial Report to the general
ledger assets accounts verified that Pundit had reported these capitalized expenditures
as direct expenses under the prior CPB grant (CPB Account Number 13359).
Regarding Pundit‟s claim that CPB funds were not used to purchase any capital
equipment, Pundit‟s accounting records did not separately account for CPB revenues
and expenditures. Revenues and expenditures were commingled in the accounting
records and we could not independently verify what funds were actually used to
purchase capital equipment or other operating expenses.

      Costs Incurred Outside the Grant Period

Our examination of reported costs identified that $28,514 were for costs incurred
outside the six-month CPB grant period from March 1, 2011 – August 31, 2011. These
costs included office rent and real estate taxes, salaries, network support, and contract
employee services to highlight of few of the cost items. A more complete listing of
these costs is presented in Exhibit D.

To illustrate, the general ledger rent account identified $53,230 in rent expenses
($45,006 in rent, $8,183 in real estate taxes & $41 in arrears). While these costs were
paid during our grant period, these payments were for 8 months rent at $5,626 per
month, 10 months of real estate taxes at $818 per month, and $41 in arrears. A total of
$46,785 was reported as rent expense and the balance of $6,639 was claimed as
Overhead Rent expenses for a total of $53,424. We questioned all costs claimed in
excess of six month‟s rent, six month‟s real estate taxes, and the arrears. This resulted
in questioned cost of $14,719.

Additionally, we found that one employee received thirteen salary payments during the
six-month CPB grant period. CNC employees were paid twice a month and would be

                                            5
entitled to twelve salary payments during the grant period. Pundit officials explained
that because of cash flow problems this employee was only paid once during February
and March. The employee received four salary payments during April making up for
the two pay periods missed in the previous months. Twelve of the salary payments
were reported as salary expenses and the thirteenth payment was claimed as
Overhead expenses in the final report to CPB. We questioned the thirteenth salary
payment of $6,250 claimed as Overhead, because it was incurred prior to the start of
this grant period.

The balance of the items identified under this category on Exhibit D, totaling $7,545,
were incurred prior to March 1, 2011, the beginning of the grant period. A total of
$1,450 of this amount was also reported as a direct expense under the prior CPB grant
(CPB Account Number 13359), which represents a duplicate charge. The balance of
$6,095 was not claimed under the prior grant or incurred during the current grant
period. In summary, we questioned a total of $28,514 under the 2011 CPB grant (CPB
Account Number 13978) for costs incurred outside the grant period.

Regarding the questioned $14,719 in rent and real estate taxes, Pundit officials said
that they did not receive the real estate tax ruling from the landlord until after March 1,
2011. The District of Columbia unexpectedly ruled that non-profits had to pay property
tax, including back taxes. Pundit said there was no way they could have included
those costs in the appropriate grant cycle or budget. Further, Pundit showed these
overages in the interim financial report projections and they were approved. Pundit
asked if an amendment was needed and were told it was not necessary. Finally, they
said the CPB-approved Overhead Methodology included a portion of rent for all grant
periods. Without documentation of CPB‟s authorization to incur costs outside the six-
month grant period, we cannot accept any of these costs as being allowable.

Regarding the questioned Overhead salary costs of $6,250, Pundit officials said this
item was also part of the CPB-approved Overhead Methodology. Further, they said
one salary payment during March was not paid until April because of cash flow
problems and one of the payments erroneously referenced February instead of the
correct pay period. Finally, Pundit said that all the reported salary costs were incurred
during the grant period, including the $6,250 claimed as Overhead. Our review of the
salary account found that 13 salary payments were made during the 6 month grant
period. The approved budget only authorized six-months of salary costs that would
equal 12 payments for this position, not the 13 payments that were made.

Regarding the balance of the questioned costs totaling $7,545, Pundit‟s explanations
for for some of the items are identified in Exhibit D. Pundit contends that two of the
items should have been booked as prepaid expenses, but this was not done. A third
item was erroneously entered into their records twice, but the transaction never cleared
the bank. However, Pundit reported this item as a grant expense. The remaining items
appear to have been charged to the prior grant based on the information Pundit
provided to us.



                                             6
       Costs not Directly Related to Programming

Our examination found $2,170 in costs reported as Overhead and Travel that were not
directly related to either programming or grant deliverables. These items included
$1,885 in bank interest payments for Pundit‟s line of credit and $285 for parking tickets.
Since finance charges and fines or penalties are not normal operating expenses
authorized in CPB grant budgets, we have questioned these costs.

Regarding the bank interest payments, Pundit officials said they had no choice but to
fund the CPB grant with a credit line. Pundit cited two excessively late CPB payments
and the requirement to spend 10 percent of the grant before CPB would make a
payment necessitated obtaining a line of credit to honor its obligations under the grant
to achieve deliverables. Further, they said that credit interest had been allowed in prior
grants and it is a CPB-approved overhead expenditure. Lastly, they said CPB‟s terms
and conditions did not identify “bank interest” or “credit interest” as an unallowable
activity. Without CPB‟s authorization to incur financing charges under the grant
agreement, we cannot accept any of these costs as being allowable.

Regarding the parking tickets, Pundit officials said the tickets were incurred by
reporters on the job obtaining valuable news content for public radio statio ns. The
reporters were doing what it took to “get the story” and Pundit subsequently paid the
parking tickets. Without CPB‟s authorization to incur fines and penalty charges under
the grant agreement, we cannot accept any of these costs as being allowabl e.

       Costs Claimed Exceed Line Item Budgetary Limit

Our review identified that two budgetary line items reported costs in excess of
budgetary limits totaling $6,878 per Exhibit C. The Office Expense & Insurance line
item exceeded the “above the line” cost category budget by $6,667. The
Communications & Web Hosting line item exceeded the $5,000 or 25 percent
budgetary threshold limit by $211.

CPB‟s Grant Agreement (CPB Account No. 13978) was made pursuant to CPB‟s
Terms and Conditions for Television, Radio and Other Media Production Grants
(November, 2002), which requires under Section 4. Budget and Financial Reporting
that “Grantee may make reallocations among Budget line items or categories (except
those covering “above the line” salaries, equipment, and general
administrative/overhead expenses) without CPB‟s approval so long as no such
reallocation involves an increase or decrease in any single Budget category in excess
of the greater of 25% of such category or $5,000.”

While we saw no written evidence that Pundit had formally requested CPB‟s
authorization to exceed approved budgetary limits, Pundit officials said that they asked
CPB officials on several occasions whether a budget amendment was required and
were told “no.” Further, they referenced the two percent Contingency line item in the



                                            7
approved budget, which they said was provided to cover unanticipated items and
overages.

        Inadequately Documented Costs

Our review identified $2,610 in costs claimed that were not supported by vendor
invoices or we could not trace the transaction into the accounting records. These items
are presented in Exhibit D and included three transactions totaling $1,559 that were not
supported with vendor invoices and five transactions totaling $1,051 that could not be
traced into the accounting expenditure records.

CPB‟s Terms and Conditions for Television, Radio and Other Media Production Grants,
Section 4.K. Form of Financial Reports states that the financial reports must be
reconcilable with the Grantee‟s general ledger accounts.

Further, CPB‟s Terms and Conditions for Television, Radio and Other Media
Production Grants under Section 4.G., also requires a Grantee to keep books, records,
and accounts sufficient to:

   i.   enable CPB to verify all direct costs, overhead, and administrative allocations
        associated with the Grant Project;
  ii.   disclose fully the amount and use of the proceeds of the Grant, the Total Project
        Cost, and the amount and nature of any portion of the Total Project Cost
        supplied by sources other than CPB; and
 iii.   permit an effective audit.

        Lack of Vendor Invoices

Three transaction tested in our sample were not supported with vendor invoices.
These items are listed on Exhibit D with Pundit‟s explanation of the costs incurred. We
questioned $1,559 for lack of supporting documentation.

Pundit officials said they kept detailed records of all invoices, statements, and accounts
over the years as affirmed by its annual audits. However, on closure Pundit moved out
of its offices in one day, with nine years of records. They said that not being able to
locate three invoices was not unreasonable and they were able to provide bank records
for one of the payments and an explanation for another (setting up a credit line and
interest charges).

        Transactions not Traceable to Accounting Records

Our reconciliation of the accounting records (general ledger accounts) to the Final
Financial Report identified a $1,051 difference as reported on Exhibit D. Pundit officials
acknowledged they could not find the $83 Payroll Tax Filing, $48 Office Expenses, and
$20 Financial Services fees in its accounting records. We found a $700 credit in the
Station Travel account that was not adjusted in reporting these costs. Additionally, we

                                            8
identified the Petty Cash asset account with $202 in it at the end of August 2011, but
no related petty cash expense account to support the $200 Overhead cost claim.

                                    *    *       *   *   *   *

Our review identified that the majority of the questioned costs, $62,243 of $81,013,
were related to Overhead charges. We attribute this to the lack of grant requirements
to document overhead charges that were traceable to the accounting records for the
period of the grant. The approved grant budget only specified that 10 percent could be
charged for Overhead. Pundit officials stated that their Overhead allocation method
was agreed to by CPB in 2007. They said it included depreciation, bank interest,
insurance, audit, legal fees, executive salary, rent, stock office supplies, and other
items. However, we could not find any evidence that this agreement was formally
documented and agreed to by both CPB and Pundit in 2007.

Similarly, according to Pundit officials Studio In-Kind revenues and expenses were also
negotiated between Pundit and CPB in 2007. They said CPB agreed that Pundit
would provide use of its studios as „in-kind‟ and charge a nominal amount to the grant
for upkeep, usage, and depreciation. However, we could not find any evidence that
this agreement was formally documented and agreed to by both CPB and Pundit in
2007.

While we did not question any of the Pundit Studio In-Kind costs, we could not
independently verify the reasonableness of the $14,167 monthly usage expense in the
accounting records (e.g., expenses to operate the studio or capitalization records to
build-out the studio and expense it over its useful life). Alternatively, we accepted the
hourly rental rates Pundit charged to other public broadcasting customers when they
rented out its studio. We used this information coupled with Pundit‟s estimates of the
hours the studio was used for grant activities to accept these charges.

The lack of specificity and agreement on recordkeeping and documentation
requirements between CPB program office officials and grantees may have led to some
misunderstandings of what was permitted and could be substantiated during the
independent audit process. A mutual understanding of agreement requirements for
documentation and recordkeeping is essential to give grantees confidence they are
incurring allowable costs and give CPB officials assurance that funds are being
effectively used for allowable purposes. Further, this understanding ensures
documentation and records are available to facilitate an effective audit.

       Recommendation

1) We recommend that CPB management recover $35,322 in questionable CPB
   expenditures.




                                             9
       Management Response

In response to this finding Pundit officials said that it “followed to the letter what it
understood to be correct reporting requirements and allowable Overhead expenses as
determined and advised by CPB Radio Management.” They said they were always
fully transparent and repeatedly asked for guidance. They did not have any indication
from CPB management they were not following correct procedure or that they were
reporting “unallowable” expenditures.

Pundit‟s specific comments on the various categories of unallowable costs are
discussed below.

Regarding the questioned $40,841 depreciation and amortization costs, Pundit said
that this was a legitimate CPB-approved Overhead charge based on the methodology
approved by CPB in 2007. Further, they said the depreciation and amortization
charges were not previously reported to CPB as direct costs under prior grants. They
referenced the 2010 grant Web Development general ledger asset accounts totaling
$113,425 and asserted that CNC only reported $81,082 in web expenses under the
2010 CPB grant, a difference of $32,343. Pundit argued that “At a bare minimum, at
least $32,343 should be applied to Overhead and Depreciation.” Their response
further explained that CNC maintained a strict “by class” accounting methodology that
did, in fact, separate CPB-funded line items from those web/equipment costs funded by
other restricted grants. They also stated that the $22,367 charged to depreciation for
the iPhone app was funded by the Ethics & Excellence in Journalism Foundation and
the app was core to Pundit/CNC‟s operations and its attempts to find alternative
sources of revenue. They said this was a key deliverable and objective of the CPB
grant. However, the auditor did not request a „by class‟ accounting.

Regarding costs incurred outside the grant period Pundit provided explanations for the
rent and real estate taxes ($8,080), Overhead rent and real estate taxes ($6,639)
Overhead salary ($6,250), and some of the other expenses ($4,581). For the real
estate taxes Pundit said that it did not receive the tax ruling until after March 1, 2011
the date when the new grant period began and they were not aware that they would
owe back taxes from the prior grant period. Further, they said they supplied interim
financial reports to CPB showing these overages, which were approved by CPB and
were told by CPB that a budget amendment was “unnecessary.” Overhead rent was
included in the CPB-approved Overhead Methodology and had been included for
almost five years in previous CPB grants. Finally, they said if the intent of the CPB
grant was to help sustain CNC while it put together a sustainable business model
paying the back taxes from the current grant was justifiable.

Regarding the $6,250 questioned Overhead salary costs, Pundit disputed that these
costs were incurred in February prior to the start of the grant. They said that the CPB-
approved Overhead Methodology had always included a portion of the executive‟s
salary because CNC was not Pundit‟s sole activity. Pundit said these costs were not
earned during February and that because of cash flow challenges the executive went

                                           10
without pay in March and the Overhead payment was made in April, within the grant
period.

Regarding some of the other Overhead charges questioned outside the grant period
totaling ($4,581), Pundit said these were “prepaid” expenses relating to the new grant,
e.g., pre-stocked office supplies, postage, and tech consultant services to ready the
studio and computer systems. The fact that these items were not recorded as prepaid
expenses in the accounting records was an oversight by CNC‟s part-time accountant.

Regarding costs questioned not directly related to programming Pundit disputed the
$1,885 credit line interest costs and $285 parking tickets. Pundit said CNC would not
have been able to fulfill grant requirements without the use of a credit line because of
late CPB payments and the need to finance accounts receivables. Further credit line
and bank interest have been allowable costs under previous CPB grants and was in the
CPB-approved Overhead Methodology. Regarding the parking tickets Pundit said they
were incurred by reporters on the job doing what it takes to “get the story.”

Regarding costs claimed in excess of the budget of $6,878, Pundit‟s response
acknowledged that two line items exceeded the budgetary thresholds. However, CNC
informed CPB of the budget changes and sought approval. Pundit said it provided
interim financial reports to CPB. The overages were included and noted in those
reports. The reports were accepted and payments were made by CPB. Finally, Pundit
said they were told by CPB officials that an amendment was not necessary. Pundit‟s
response also questioned why the $5,000 budget over run was not given for Office
Expense & Insurance, which would have reduced the over run to $3,384. The two
percent Contingency budget ($12,264) could then be applied to the remaining overage
to eliminate the questioned costs.

Regarding inadequately documented costs Pundit said that on closure CNC moved out
of its offices in one day with nine years of records the support for three transactions
totaling $1,559 were misplaced. Pundit said they provided bank records to substantiate
the payments. Pundit acknowledged they could not find $151 in office expenses in its
accounting records. Regarding the $700 credit to the station travel account, Pundit
said they could not identify what this amount referred to. Finally, Pundit said the $200
Petty Cash account was used for reimbursing small expenditures, e.g., taxi cabs or
supplies.

      OIG Review and Comment

Based on Pundit‟s response we consider recommendation 1 unresolved pending CPB‟s
management decision. Pundit‟s response generally reiterated the comments it
provided to us during our fieldwork. We included Pundit‟s disagreements with our
finding conclusions in the draft report. Our evaluation of Pundit‟s written response to
the draft report‟s findings is presented below.




                                           11
Regarding the questioned $40,841 in depreciation and amortization costs, we
acknowledge that we did not request an accounting of web asset purchases “by class”
to verify purchases made by non-CPB funding sources. However, based on the
accounting information provided to us during our audit fieldwork we were able to
substantiate that $81,082 of $113,425 was directly charged to the 2010 CPB grant. We
could not determine the allowability of $32,343 difference because we did not reconcile
the 2010 general ledger to the final financial report submitted to CPB to ensure that any
of these capital purchases were claimed as direct costs under another line item.
Further, we did not test any of the FY 2008-2009 web purchases to determine whether
those amortized costs had also been charged directly to those CPB grants. As a result,
our questioned depreciation and amortization costs remain unchanged.

Regarding the questioned costs of $20,969 for rent, real estate taxes, and Overhead
salary claimed in excess of the six-month grant period, the appropriateness of such
charges will have to be addressed by CPB management during the audit resolution
process. Regarding the remaining questions costs (e.g., pre-paid expenses, credit line
interest charges, costs exceeding budgetary limits, or inadequate documentation)
totaling $19,203, no new information was presented in response to the draft report that
warranted accepting any of these questioned costs. The allowability of these items will
also have to be addressed by CPB management during the audit resolution process.

In-Kind Revenues & Expenditures for Professional Services not Authorized in
Budget

Pundit‟s Final Financial Report to CPB included $40,500 in professional in-kind
services reported as revenues and expenditures. This increased both reported
revenues and expenditures under the grant. As a result, four budgeted expense
categories exceeded budgetary limits without CPB authorization. Additionally, it
allowed Pundit to claim a higher level of reimbursement from CPB because total
revenues were increased by $40,500. CPB‟s proportionate share of revenues in the
approved budget was 43.6 percent of the total revenues received. Reporting in-kind
professional services revenues enabled Pundit to claim an additional $17,658 from
CPB.

CPB‟s Grant Agreement (CPB Account No. 13978) Article 4. Term specifies that costs
may be incurred pursuant to the Detailed Budget from March 1, 2011 through August
31, 2011. Further, CPB‟s Terms and Conditions for Television, Rad io and Other Media
Production Grants, Section 4.B Other Funding Sources states that, “To the extent other
sources have committed funds to an applicant or Grantee for the development of a
Grant Project at the time the applicant submits a Grant Application, those sources and
the total funds committed by them must be disclosed to CPB as part of the Grant
Application. If other sources offer to commit funds before a Grant Agreement is signed,
the applicant must disclose those funding offers to CPB prior to accepting them.”

While we saw no formal request by Pundit to add additional in-kind services to the
approved budget categories, Pundit officials advised us they discussed it with CPB

                                           12
officials and were told that the six-month grant term made a formal budget request
impractical and not necessary. Further, they said they had included in-kind
professional services and revenues in previous grants without incident or challenge.

We reviewed the interim financial report submitted under this grant and the projected
spending report. We found no references to claiming in-kind professional services
under the FY 2011 grant. Our review of the FY 2010 Final Financial Report identified
that in-kind professional services were referenced in the footnotes to the final report,
but the amount of in-kind revenues and expenses included in the final report were not
specified. While CPB may have accepted the FY 2010 Final Financial Report, we
cannot assume CPB will do that for the FY 2011 grant.

       Recommendation

2) We recommend that CPB management determine the appropriateness of claiming
   an additional $40,500 for in-kind professional services over and above the $85,000
   of in-kind studio costs already authorized in the approved budget.

       Management Response

In response to this finding Pundit officials said that at no time in CNC‟s nine year history
did CPB ever require them to report the specific sources of the funds contributing to
that line item at the time of grant application. The grants and gifts line item always
included monies from a range of foundations and individual donations (cash and in-
kind). Further, their response reiterated that when it became apparent that CNC would
require in-kind professional support it informed CPB and asked whether an amendment
was necessary and CPB informed them that a grant amendment was not needed.
Pundit also indicated that they have included in-kind professional services in previous
grants with CPB‟s approval. Finally, their response indicated that CPB had requested
them to amend its final financial report to separate in-kind professional services two
months after the end of the grant.

       OIG Review and Comment

Based on Pundit‟s response we consider recommendation 2 unresolved pending CPB‟s
management decision. Pundit‟s response generally reiterated the comments we
received during our fieldwork. The allowability of claiming additional in-kind
professional services will have to be addressed by CPB management during the audit
resolution process.

Reporting Revenues Not Received

Pundit‟s revised final financial report submitted to CPB in January 2012 did not adjust
revenues reported to account for $8,250 not received from a client. Initially, $15,000 in
revenues was booked in July 2011 for annual services. However, when CNC went out
of business at the end of August, it negotiated with the client on services rendered and

                                            13
the fee was settled at $6,750. These funds were remitted to Pundit in December 2011.
As a result, Pundit revenues were over-stated by $8,250 which enabled Pundit to claim
an additional $3,597 from CPB.

CPB‟s Terms and Conditions for Television, Radio and Other Media Production Grants,
Section 4.K. Form of Financial Reports states that the financial reports must be
reconcilable with the Grantee‟s general ledger accounts.

We were provided a copy of an annual service agreement for $15,000 that was signed
by Pundit but not executed by the client. The lack of an executed agreement did not
provide us an adequate basis to recognize the full $15,000 in revenues. As a result,
we can only accept the actual funds received of $6,750 and not the balance of $8,250.

In response to this finding, Pundit officials indicated that the client did not sign the
contract, they signed up for their services via email. Further, Pundit indicated that the
client used more than half of the annual package in just two months. They negotiated a
settlement for $6,750 and Pundit received payment in December 2011.

      Recommendation

3) We recommend that CPB management use the audited adjusted revenue total to
   calculate CPB‟s appropriate share of total revenues eligible for reimbursement
   under the grant agreement terms.

      Management Response

In response to this finding Pundit said it operated on an accrual basis and the $15,000
was the payable for a year‟s service. However, the client was late in paying and had
received 2/3rds worth of services valued at $9,900. When CNC ceased operating it
was not possible to fully recover for the services rendered. The amount owed should
have been accounted for as a bad debt. This would have reduced revenues but
increased overhead costs.

      OIG Review and Comment

Based on Pundit‟s response we consider recommendation 3 unresolved pending CPB‟s
management decision. Pundit‟s response generally reiterated the comments we
received during our fieldwork. The claiming of revenues not received will have to be
addressed by CPB management during the audit resolution process.




                                           14
                                                                                                Exhibit A

                                    CPB Payments to Pundit
                                 March 1, 2011 – August 31, 2011
                                  Contract
         Paym ent Date              No.       Am ount                      Description


           3/22/2011               13359             $22,707   Final FY 2010 grant pay ment
            4/5/2011               13978            $150,000   Initial FY 2011 grant pay ment
           6/10/2011               13978            $120,000   Interim FY 2011 grant pay ment


Total Paid During Audit Period                      $292,707




                                               15
                                                                                                         Exhibit B

                                           Final Financial Report*
                                       March 1, 2011 – August 31, 2011

           Budget Categories                        Budget              Final Report    Under/(Over)


 INCOM E:
 Station Revenue                                        $120,000             $140,200        ($20,200)
 Content Sales                                           $40,000              $18,000         $22,000
 Grants & Major Giving                                   $72,500              $75,000         ($2,500)
 In-Kind Professional Services                                                $40,500        ($40,500)
 CPB                                                    $300,000             $300,000              $0
 Sponsorship/Underwriting                                $70,536              $12,813         $57,723
 Pundit Studio In-Kind                                   $85,000              $85,000              $0
             TOTAL INCOM E                             $688,036             $671,513         $16,523


 EXPENDIT URES:
 Staffing:
 Salaries & Wages                                      $208,291             $196,537         $11,754
 Taxes/Benefits                                         $20,829               $24,927        ($4,098)
 In- Kind Assignment                                                          $16,000       ($16,000)
              Total Staffing                           $229,120             $237,464         ($8,344)


 Contractors:                                           $72,000               $43,312        $28,688


 Web Development:
 Digital Delivery Platform                              $66,500               $64,811         $1,689
 CNC/AYL w ebsite                                         $6,400               $6,911          ($511)
                  Sub-Total                             $72,900               $71,722         $1,178


 Travel & Marketing:
 Station Travel                                         $19,717               $12,802         $6,915
 Conferences                                              $6,600               $2,366         $4,234
                  Sub-Total                             $26,317               $15,168        $11,149


 Broadcast & Web Equipment:
 Rental                                                 $90,000               $90,000              $0
 Audio & IT Maintenance                                 $11,000                $9,529         $1,471
                  Sub-Total                            $101,000               $99,529         $1,471

* Pundit submitted a revised final report to CPB on January 22, 2012.




                                                               16
                                                                                           Exhibit B (continued)

                                           Final Financial Report*
                                       March 1, 2011 – August 31, 2011

              Budget Categories                      Budget             Final Report    Under/(Over)


 Office Expen ses & In surance:
 Insurance                                                 $5,400              $7,215        ($1,815)
 Rent                                                     $33,900             $46,785       ($12,885)
 Pr oduction & Of fice Supplies                            $4,000              $5,654        ($1,654)
                  Sub-Total                               $43,300             $59,654       ($16,354)


 Communications & Web Ho sting                            $25,175             $31,680        ($6,505)


 Outreach:
 Paid                                                      $5,000              $2,265         $2,735
 In- Kind                                                                      $4,500        ($4,500)
                  Sub-Total                                $5,000              $6,765        ($1,765)


 Marketing, Sales & Di stribution:
 Paid                                                     $29,409             $23,605         $5,804
 In- Kind                                                                     $12,000       ($12,000)
                  Sub-Total                               $29,409             $35,605        ($6,196)


 Financial Services:
 Paid                                                      $9,000              $8,728           $272
 In- Kind                                                                      $8,000        ($8,000)
                  Sub-Total                                $9,000             $16,728        ($7,728)


               Total Expen ses                          $613,221            $617,626         ($4,405)


 Contingency                                              $12,264                            $12,264
 Overhead                                                 $62,549             $69,298        ($6,749)


            TOTAL EXPENDIT URES                         $688,034            $686,924          $1,110

* Pundit submitted a revised final report to CPB on January 22, 2012.




                                                               17
                                                                                                 Exhibit C
                                        Budget Line Item Analysis
                                      Adjusted for Questioned Costs

         Budget Categories                 Budget        Final Report     Under/(Over)     Exceed Budget Lim it


INCOM E:
Station Revenue                              $120,000         $140,200         ($20,200)
Content Sales                                 $40,000          $18,000          $22,000
Grants & Major Giving                         $72,500          $75,000          ($2,500)
In-Kind Professional Services                                  $40,500         ($40,500)
CPB                                          $300,000         $300,000               $0
Sponsorship/Underwriting                      $70,536          $12,813          $57,723
Pundit Studio In-Kind                         $85,000          $85,000               $0
            TOTAL INCOM E                    $688,036        $671,513          $16,523
   Questioned In-kind Prof Services                           ($40,500)         $40,500
 Adjusted for Revenues Not Received                            ($8,250)          $8,250
      Adjusted Total Income                  $688,036        $622,763          $65,273


EXPENDIT URES:
Staffing:
Salaries & Wages                             $208,291         $196,537          $11,754
Taxes/Benefits                                $20,829          $24,927          ($4,098)
In-Kind Assignment                                             $16,000         ($16,000)
             Total Staffing                  $229,120        $237,464          ($8,344)
    Questioned In-kind Assignment                             ($16,000)         $16,000
        Adjusted Sub-Total                   $229,120        $221,464           $7,656


Contractors:                                  $72,000          $43,312         $28,688
      Adjusted Questioned Costs                                ($1,200)          $1,200
        Adjusted Sub-Total                    $72,000          $42,112         $29,888


Web Development:
Digital Delivery Platform                     $66,500          $64,811           $1,689
PUNDIT/AYL website                             $6,400           $6,911           ($511)
                 Sub-Total                    $72,900          $71,722          $1,178


Travel & Marketing:
Station Travel                                $19,717          $12,802           $6,915
Conferences                                    $6,600           $2,366           $4,234
                 Sub-Total                    $26,317          $15,168         $11,149
      Adjusted Questioned Costs                                  ($985)            $985
        Adjusted Sub-Total                    $26,317          $14,183         $12,134




                                                        18
                                                                                Exhibit C (continued)

                                        Budget Line Item Analysis
                                      Adjusted for Questioned Costs

          Budget Categories                Budget        Final Report     Under/(Over)     Exceed Budget Lim it


Broadcast & Web Equipment:
Rental                                        $90,000          $90,000               $0
Audio & IT Maintenance                        $11,000           $9,529           $1,471
               Sub-Total                     $101,000          $99,529          $1,471


Office Expen ses & In surance:
Insurance                                      $5,400           $7,215          ($1,815)
Rent                                          $33,900          $46,785         ($12,885)
Production & Office Supplies                   $4,000           $5,654          ($1,654)
               Sub-Total                      $43,300          $59,654        ($16,354)
        Adjusted Questioned Costs                              ($9,687)          $9,687
          Adjusted Sub-Total                  $43,300          $49,967         ($6,667)    $6,667 for "above line" item


Communications & Web Ho sting:                $25,175          $31,680         ($6,505)    $211 over 25% ($6,294) limit


Outreach:
Paid                                           $5,000           $2,265           $2,735
In-Kind                                                         $4,500          ($4,500)
               Sub-Total                       $5,000           $6,765         ($1,765)
       Questioned In-kind Outreach                             ($4,500)          $4,500
          Adjusted Sub-Total                   $5,000           $2,265          $2,735


Marketing, Sales & Di stribution:
Paid                                          $29,409          $23,605           $5,804
In-Kind                                                        $12,000         ($12,000)
               Sub-Total                      $29,409          $35,605         ($6,196)
       Questioned In-kind Marketing                           ($12,000)         $12,000
          Adjusted Sub-Total                  $29,409          $23,605          $5,804


Financial Services:
Paid                                           $9,000           $8,728           ($272)
In-Kind                                                         $8,000          ($8,000)
               Sub-Total                       $9,000          $16,728         ($7,728)
 Questioned In-kind Financial Services                         ($8,000)          $8,000
        Adjusted Questioned Costs                                 ($20)             $20
          Adjusted Sub-Total                   $9,000           $8,708            $292




                                                        19
                                                                             Exhibit C (continued)

                                     Budget Line Item Analysis
                                   Adjusted for Questioned Costs

           Budget Categories             Budget       Final Report     Under/(Over)     Exceed Budget Lim it


            Total Expen ses              $613,221         $565,235          $47,986


Contingency                                $12,264                           $12,264
Overhead                                   $62,549          $69,298          ($6,749)
       Adjusted Questioned Costs                           ($62,243)         $62,243


ADJUST ED TOTAL EXPENDIT URES            $688,034         $572,290         $115,744




                                                     20
                                                                                                                        Exhibit D

                              Unallowable and Inadequately Documented Costs

           Cost Category / Vendor            Amount                                    Explanation


Unallowable Costs:
Ov erhead-Web Amortization                     $35,508   Charged as direct Web development cost prior period
Ov erhead-Facility Depreciation                 $5,333   Charged as direct cost prior period
     Amortization & Depreciation Sub-Total     $40,841
Rent & Real Estate Taxes                        $8,080   Rent & RE taxes paid for more than 6 months
Ov erhead - Rent & Real Estate Taxes            $6,639   Rent & RE taxes paid for more than 6 months
Ov erhead - CEO Salary                          $6,250   CEO's salary payment exceeded pay periods in grant period
Ov erhead - Office Supplies                     $2,331   Prior grant period costs (Pundit claimed should be prepaid expense)

Ov erhead - Tech Consultation                   $2,000   Prior grant period costs (Pundit: claimed should be prepaid expense)
Ov erhead - Credit Line Interest                $1,764   Recorded G/L 2010 - $1,450 expensed to prior grant
Contract Reporter                               $1,200   Serv ices rendered in prior grant period (Pundit: check nev er cashed)
Ov erhead - Mail                                 $250    Recorded G/L 2010

         Outside Grant Period Sub-Total        $28,514
Ov erhead - Bank Interest                       $1,885   Interest/finance charges
DC Treasurer                                     $285    Reporter parking tickets

         Not Program Related Sub-Total          $2,170
                   Unallowable Total           $71,525


Costs Exceed Budget w/o Authorization:
Off ice Expense & Insurance                     $6,667   "abov e the line" budget line item

Communications & Web Hosting                     $211    In excess of 25% ($6,294) budget line item limit
          Costs Exceed Budget Limits            $6,878


Inadequately Documented Costs:
BB&T (4/30/11)                                   $670    No vendor invoice (Pundit: credit line interest)
Apple Store (8/14/11)                            $456    No vendor invoice (Pundit: equipment)
Hoovers (5/5/11)                                 $433    No vendor invoice (Pundit: research to identify new clients)

          No Vendor Invoice Sub-Total           $1,559
Travel & Marketing                               $700    Difference between Final Report and general ledger account
Ov erhead - Petty Cash                           $200    Difference between Final Report and general ledger account
Ov erhead - Payroll Tax Filing                    $83    Difference between Final Report and general ledger account
Off ice Expenses & Insurance                      $48    Difference between Final Report and general ledger account
Financial Services                                $20    Difference between Final Report and general ledger account

           Not Recorded G/L Sub-Total           $1,051
         Inadequately Documented Total          $2,610


                   Total Questioned            $81,013
                   CPB % of Funding             43.6%

             CPB Questioned Costs              $35,322




                                                         21
                                                                               Exhibit E

                               Scope and Methodology

We performed an examination of Pundit‟s compliance with grant spending and financial
reporting requirements as specified in the budget contained in Attachment B to the
grant agreement. The scope of the examination included reviews and tests of the
reported revenues and expenditures for the period March 1, 2011 – August 31, 2011.

We judgmentally selected samples of revenues and expenditures reported on the
Final Financial Report submitted to CPB, dated January 22, 2012. We tested revenues
totaling $130,250 of $671,513 reported (19.4 percent). We tested expenditures of
$360,235 of $686,925 reported (52.4 percent). We traced revenues to underlying
agreements and expenditures to underlying supporting documents (e.g., pay stubs,
vendor invoices, lease agreement, etc). We also reconciled the Final Financial Report
to the general ledger and compared reported expenditures against budget categories
for compliance with grant requirements for exceeding budgetary limits.

CPB‟s grant agreement requirements did not: 1) require discrete accounting for CPB
funds (revenues & expenditures); 2) require employee time records to support actual
time spent on CPB grant activities versus non-CPB activities; 3) define how in-kind
services had to be documented to support reported revenues and expenditures; and 4)
define what could be claimed as indirect costs and how such costs had to be equitably
distributed across all activities of the organization (CPB funded and non-CPB funded
activities). The lack of grant agreement requirements addressing these four issues
created a scope limitation and did not facilitate an effective audit of the use of CPB
funds. As a result, we had to develop criteria to evaluate in-kind studio costs and
calculate questionable CPB costs based on auditing the costs incurred from all funding
sources.

We did not gain an understanding of internal controls because Pundit is no longer
operating. Pundit ceased operations in September 2011. While gaining an
understanding of internal controls is required under the attestation standards , we did
not believe it had an adverse effect on our audit conclusions. We assessed risks as
high and did not limit our substantive testing of expenditures to verify compliance with
grant spending and reporting requirements to conclude on our examination objectives.

Our fieldwork was performed from January 11, 2012 through May 14, 2012. Our
examination was performed in accordance with the Government Auditing Standards,
July 2007 Revision, for attestation examinations.




                                           22
                 AUDIT REPORT
                NO. APR1203-1206



 Appendixes 1 - 5 referenced in the response from
Pundit Productions, Inc. are available upon request.



               Contact our office at:

                   202.879.9669

                        or

       Corporation for Public Broadcasting
           Office of Inspector General
              401 Ninth Street, NW
                       3rd flr
             Washington, DC 20004
